               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Postal Service Board of Governors’
    Travel and Miscellaneous Expenses
            for Fiscal Year 2013

                       Audit Report




                                              January 30, 2014

Report Number FT-AR-14-004
                                                                       January 30, 2014

                                           Postal Service Board of Governors’ Travel
                                                        and Miscellaneous Expenses
                                                                 for Fiscal Year 2013

                                                         Report Number FT-AR-14-004



BACKGROUND:
The Postal Reorganization Act of 1970,       WHAT THE OIG FOUND:
as amended, established the U.S.             Travel and miscellaneous expenses
Postal Service Board of Governors            totaling about $153,000 and external
(Board), which is composed of the            professional fees totaling about $36,000
postmaster general, deputy postmaster        were properly supported, reasonable,
general, and nine governors appointed        and generally in compliance with Postal
by the President of the United States.       Service and Board policies.
As of September 30, 2013, the Board
consisted of the postmaster general, the     WHAT THE OIG RECOMMENDED:
deputy postmaster general, and five          Based on the audit results, we are not
governors.                                   making any recommendations.

The Board directs and controls the           Link to review the entire report
expenditures of the Postal Service,
reviews its practices and policies, and
establishes objectives and goals in
accordance with Title 39 of the U.S.
Code. On July 8, 1986, the Board
passed Resolution Number 86-12,
which requires annual audits of the
Board’s travel and miscellaneous
expenses.

Our objective was to determine whether
the Board’s travel and miscellaneous
expenses, including external
professional fees, were properly
supported, reasonable, and in
compliance with Postal Service policies
and procedures and Board policies.
January 30, 2014

MEMORANDUM FOR:            JULIE S. MOORE
                           SECRETARY, BOARD OF GOVERNORS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability


SUBJECT:                   Audit Report – Postal Service Board of Governors’ Travel
                           and Miscellaneous Expenses for Fiscal Year 2013
                           (Report Number FT-AR-14-004)

This report presents the results of our audit of the Postal Service Board of Governors’
Travel and Miscellaneous Expenses for Fiscal Year 2013 (Project Number
13BG013FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Postal Service Board of Governors’ Travel and                                                                      FT-AR-14-004
 Miscellaneous Expenses for Fiscal Year 2013




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Business-Related Meals and Expenses .......................................................................... 1

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objective, Scope, and Methodology ............................................................................ 3

   Prior Audit Coverage ................................................................................................... 4
Postal Service Board of Governors’ Travel and                                                         FT-AR-14-004
 Miscellaneous Expenses for Fiscal Year 2013



Introduction

This report presents the results of our audit of the Board of Governors’ (Board) travel
and miscellaneous expenses for fiscal year (FY) 2013 (Project Number
13BG013FT000). We conducted this audit in response to a Board resolution requiring
annual audits of the Board’s expenses. Our objective was to determine whether the
travel and miscellaneous expenses of the Board, including external professional fees,
were properly supported, reasonable, and in compliance with U.S. Postal Service and
Board policies. See Appendix A for additional information about this audit.

The Postal Reorganization Act of 1970, as amended, established the Board, which is
composed of the postmaster general, deputy postmaster general, and nine governors
appointed by the President of the United States. As of September 30, 2013, the Board
consisted of the postmaster general, the deputy postmaster general, and five governors.
The Board directs and controls the expenditures of the Postal Service, reviews its
practices and policies, and establishes objectives and goals in accordance with Title 39
of the U.S. Code. In FY 2013, the Board held 39 meetings1 and incurred about
$189,000 in travel and miscellaneous expenses and external professional fees.2

Conclusion

Travel and miscellaneous expenses for FY 2013 totaling about $153,000 and external
professional fees totaling about $36,000 were properly supported, reasonable, and
generally in compliance with Postal Service and Board policies. In comparison, FY 2012
travel and miscellaneous expenses and external professional fees totaled about
$216,000 and $492,000, respectively. The significant decrease in external professional
fees is due to a final payment of $492,000 in FY 2012 for a consulting contract entered
into during FY 2011.

Business-Related Meals and Expenses

In FY 2012, the U.S. Postal Service Office of Inspector General (OIG) found the Board’s
general policy did not contain guidelines for purchasing official business-related meals
and expenses for customers and other external stakeholders. The OIG recommended
the secretary of the Board develop policies and procedures for business representation
meals. As a result, the Board adopted a revised policy, effective June 18, 2013, that
included guidelines for these expenses. Specifically, the policy provided a breakfast and
lunch per person allowance of $50 and a dinner per person allowance of $75. Both
limits exclude tax and gratuity.

1
  Meetings include full Board regular, annual, and special meetings and committee meetings, but do not include other
official functions such as stamp dedication ceremonies. A governor may participate by telephone in these meetings
and, thus, not incur travel costs.
2
  The majority of professional fees represents payments for legal consultations.
                                                           1
                                                Restricted Information
Postal Service Board of Governors’ Travel and                                                        FT-AR-14-004
 Miscellaneous Expenses for Fiscal Year 2013



During FY 2013, but prior to implementation of the revised policy, we identified three
instances where the cost of meals exceeded the guidelines of the revised policy:

   For two dinners, one in New York City totaling $1,8853 and one in Washington, D.C.,
    totaling $893,4 the per person costs of the meals were $94 and $81, respectively.

   For one catered lunch with corporate customers in New York City totaling $3,020,5
    the per person cost of the meal was $131, exceeding the $50 allowance.

We did not find any instances exceeding the cost guidelines after implementation of the
revised policy. Since the above instances occurred before the Board revised the policy,
we are not making any recommendations in this area.

Because we are not making any recommendations, management chose not to formally
respond to this report.




3
  There were 20 attendees, including eight Board members, five Postal Service officers, three Postal Service
managers, and four Postal Service inspectors. Cost excludes tax and gratuity.
4
  There were 11 attendees, including eight Board members and three Postal Service inspectors. Cost excludes tax
and gratuity.
5
  There were 23 attendees, including eight Board members, two Postal Service officers, 10 executives representing
nine corporate customers, and three Postal Service inspectors. Cost includes fees for services and linens.


                                                         2
Postal Service Board of Governors’ Travel and                                                        FT-AR-14-004
 Miscellaneous Expenses for Fiscal Year 2013



                                 Appendix A: Additional Information

Background

The Postal Reorganization Act of 1970, as amended, established the Board, which is
composed of the postmaster general, deputy postmaster general, and nine governors
appointed by the President of the United States. As of September 30, 2013, the Board
consisted of the postmaster general, the deputy postmaster general, and five
governors.6

The Board directs and controls the expenditures of the Postal Service, reviews its
practices and policies, and establishes objectives and goals in accordance with Title 39
of the U.S. Code. On July 8, 1986, the Board passed Resolution Number 86-12, which
requires annual audits of the Board’s travel and miscellaneous expenses.

The Board generally meets in Washington, D.C., or another location where members
can visit Postal Service facilities or large mailer operations. In FY 2013, the Board held
39 meetings and incurred about $153,000 in travel and miscellaneous expenses and
about $36,000 in external professional fees.

Objective, Scope, and Methodology

Our objective was to determine whether the travel and miscellaneous expenses of the
Board, including external professional fees, were properly supported, reasonable, and in
compliance with Postal Service policies and procedures and Board policies. We
reviewed all 58 Board7 travel reimbursements processed under finance number 101099
through the Oracle Accounts Payable System for travel and miscellaneous expenses
incurred during FY 2013. We also reviewed all Board external professional fees incurred
during the same period at the request of the independent public accountant, EY, LLP.

We conducted this performance audit from December 2012 through January 20148 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Our tests of controls were
limited to those necessary to achieve our audit objective. Our procedures were not
designed to provide assurance on internal controls. Consequently, we do not provide an
opinion on such controls. Also, our audit does not provide absolute assurance of the
absence of fraud or illegal acts, due to the nature of evidence and characteristics of
6
  There were four vacancies on the Board as of September 30, 2013.
7
  The postmaster general’s and deputy postmaster general’s travel and representation expenses are not included in
the scope of this audit. They are included in our audit on Officers’ Travel and Representation Expenses for Fiscal
Year 2013.
8
  The scope of our audit was October 1, 2012 through September 30, 2013.


                                                         3
Postal Service Board of Governors’ Travel and                                 FT-AR-14-004
 Miscellaneous Expenses for Fiscal Year 2013


such activities. We discussed our observations and conclusions with management on
December 20, 2013, and included their comments where appropriate.

We assessed the reliability of Oracle Accounts Payable System data by tracing selected
financial information to supporting source documentation. For example, we verified
Board travel payments recorded in the Oracle Accounts Payable System to original
travel reimbursements. We determined that the data were sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

                                                           Final
                                                          Report         Monetary
           Report Title             Report Number          Date           Impact
  Postal Service Board of            FT-AR-13-008        1/4/2013          None
  Governors’ Travel and
  Miscellaneous Expenses for
  Fiscal Year 2012
  Report Results:
  Travel and miscellaneous expenses totaling about $216,000 and external
  professional fees totaling about $492,000 were generally properly supported,
  reasonable, and in compliance with Postal Service policies and procedures.
  However, the Board’s general policy did not contain guidelines for purchase and
  payment of official business-related meals or expenses with customers and other
  external stakeholders. The secretary of the Board agreed with the recommendation
  to develop policies and procedures for business representation meals.

                                                          Final
                                                         Report          Monetary
           Report Title              Report Number        Date            Impact
  Postal Service Board of             FT-AR-12-004      12/6/2011          None
  Governors’ Travel and
  Miscellaneous Expenses for
  Fiscal Year 2011
  Report Results:
  Travel and miscellaneous expenses totaling about $163,000 and external
  professional fees totaling $1.4 million were properly supported, reasonable, and in
  compliance with Postal Service and Board policies. We did not make any
  recommendations.




                                                4
